Before the Committee on Appropriations
Subcommittee on Transportation, Treasury, the Judiciary, Housing
and Urban Development, and Related Agencies
United States Senate


 For Release on Delivery
 Expected at
 9:30 a.m. EST
                           Intercity Passenger
                           Rail and Amtrak
 Thursday
 May 12, 2005
 CC-2005-037




                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify on intercity passenger rail and Amtrak.
Intercity passenger rail is an important component of a balanced transportation
system. Amtrak’s authorization expired in 2002. In the interim, Congress has
provided direction in piecemeal fashion in the appropriations process. We have
testified several times since then on Amtrak’s unsustainably large operating losses,
poor on-time performance, and increasing levels of deferred infrastructure and
fleet investment. We find ourselves testifying again today on these same subjects,
but with greater urgency. As time goes on, the current limp-along status quo
system comes closer to a major failure, but no one knows where or when such a
failure may occur.

We reported in November 2004, that the current model for intercity passenger rail
is broken. And the reason it is broken goes beyond persistent budgetary shortfalls
and extends to matters like who decides on the type and amount of service, who
provides service, and who selects the providers. Other than budget cuts or the
threat of budget cuts, the current model provides few incentives for cost control or
delivery of services in a cost-effective way.

Amtrak is quite literally coming to the end of its rope. Amtrak’s most recent cash
flow analysis forecasts cash on hand of about $32 million by the end of fiscal year
(FY) 2005, excluding the impact from the loss of Acela service. This amounts to
less than 2 weeks of Amtrak’s average cash requirements. For several reasons, a
bankruptcy option would be an extraordinarily complex and risky undertaking—in
our opinion, one not to be relied upon if the objective is to promote a more rational
and reliable national passenger rail system.           In short, a comprehensive
reauthorization that provides new direction and adequate funding is needed and
needed this year.

A reauthorization, in our opinion, should focus on improving mobility in short
distance corridors around the country—not just in the Northeast Corridor—and in
restructuring long-distance services to complement corridor services. This will
require new relationships or partnerships between the Federal Government and the
states and among the states, Amtrak, and the freight railroads, and give the states
much greater authority and control over intercity passenger rail decisions. But, in
order for this to work, a considerably more robust Federal funding program for
capital, with a reasonable state match will be required, along with additional state
contributions.

The Administration’s proposal recognizes that the current model is broken and
confronts several key issues in a straightforward way, while leaving others less
clear or unanswered. We concur with the emphasis on corridor development
within and outside the Northeast Corridor—these are the places where the demand
is—and we concur as well with the greater decision-making powers given the
states.

Also, reauthorization should leave open the door to competition. Amtrak is the
sole provider of intercity passenger rail service and, as such, has few incentives,
other than the threat of funding cuts, to operate more efficiently. While we are not
in a position to say how many, if any, potential competitors there might be, there
needs to be a level playing field to promote competition, and consideration must
be given as well to the legitimate interests of the freight railroads who own the rail
infrastructure outside the Northeast Corridor.

Left unanswered by the Administration’s proposal, however, is a central issue,
most notably the approximate level of funding it supports. This has fostered a
perception that while the states would be given more authority, the funding burden
for operating losses would fall largely on them, with no corresponding
commitment to significantly expand Federal capital funding. The debate on
reauthorization would be much better informed if the Administration’s bill spelled
out Federal funding levels with greater clarity. We fully recognize that the
problems of the current model extend beyond matters of money, but funding levels
are an integral part of any solution and in reaching consensus.

Our own take on the funding issue is as follows. In FY 2005, Amtrak received a
Federal appropriation of $1.2 billion. In addition, Amtrak anticipates $140 million
in state contributions for operating costs and $200 million for capital projects. In
effect, Amtrak had access to funds totaling about $1.5 billion. This level of
funding is not sufficient to make progress toward achieving a state of good repair.

If Amtrak receives only $1.2 billion in Federal funding in FY 2006, even
combined with expected state operating and capital contributions, it will likely
continue to defer needed capital investment and will need to cut services. Intercity
passenger rail needs Federal funding between $1.4 billion and $1.5 billion, plus
existing state contributions, in order to maintain the status quo as we know it
today. However, this level of funding would not be sufficient to move the system
to a state-of-good-repair, let alone permit investment in new corridor development.

For 2007 and beyond, Federal funding levels between $1.7 billion and $2.0 billion
would put us on the road to bringing the existing infrastructure and fleet to a state-
of-good-repair and better position states to use Federal funds plus their own
revenues to invest in rail corridors. This assumes that states would provide a
reasonable match of 15 to 30 percent for capital grants and would cover a larger
portion of operating subsidies and that Amtrak would implement cost saving
measures in such areas as food and beverage service.
Current Model Is Broken, Resulting in Severe Financial
Instability and Declining Service Quality

Despite multiple efforts over the years to change Amtrak’s structure and funding,
we have a system that limps along, never in a state-of-good-repair, awash in debt,
and perpetually on the edge of collapse. In the end, Amtrak has been tasked to be
all things to all people, but the model under which it operates leaves many
unsatisfied. Consider the following:

• Amtrak is in a precarious
                                                                          Operating and Cash Losses
  financial condition. Its system
                                                                           FY 1997 through FY 2004
  continues to suffer operating
                                                    $1,600
  losses on all but a handful of
  routes. Losses on some long-                      $1,400
                                                                                                           $1,271
                                                                                                                               $1,293
                                                                                                                                          $1,338

  distance trains (excluding                        $1,200
                                                                                                                      $1,149

  depreciation and interest)                        $1,000                              $916     $944
                                      ($millions)




                                                                           $860
  exceed $400 per passenger.                         $800
                                                                 $797                                          $770
  For the last 6 years the average                   $600          $549          $561     $579
                                                                                                                          $631     $644       $635
                                                                                                    $561
  annual cash losses have
                                                     $400
  exceeded $600 million. The
                                                     $200
  growth in cash losses since FY
  2000 is primarily attributable                       $0
                                                                 1997       1998        1999       2000      2001      2002       2003      2004
  to rising interest expense.
                                                                         Operating Loss                   Cash Loss              Interest



• Amtrak is carrying a large                                            Amtrak's Short- and Long-term Debt
                                                                             FY 1997 through FY 2004
  debt burden. Its total debt
  grew 178 percent between FY                                                                                             $4,817 $4,637
                                                        5,000                                               $4,628 $4,826
  1997 and FY 2002, although it
  has declined slightly in the                          4,000                                      $3,577

  past 2 years. For the                                 3,000
                                     ($ millions)




                                                                                          $2,449
                                                                                 $2,157
  foreseeable future, Amtrak’s                                          $1,737
                                                        2,000
  annual debt service payments
  will approach $300 million.                           1,000

                                                             -
                                                                        1997 1998 1999 2000 2001 2002 2003 2004


                                                                            Long-Term Debt                     Short-Term Debt
• While ridership increased to                                  Trends in Passenger Revenue and Ridership
  25.1 million in FY 2004,                                               FY 1993 through FY 2004
  passenger revenues were $1,304                              $1,600                                                              26


  million, below the $1,341                                   $1,400                                                              25




                                                                                                                                       Ridership (millions)
                                                              $1,200                                                              24
  million achieved in 2002, due




                                        Revenue ($millions)
                                                              $1,000                                                              23
  primarily to fare pressures. For                             $800                                                               22
  the first 6 months of FY 2005,                               $600                                                               21

  passenger revenues were $7.4                                 $400                                                               20

  million lower than the same                                  $200
                                                                                                   Revenue          Ridership
                                                                                                                                  19

  period in FY 2004.                                             $0                                                         18
                                                                  1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004




• Amtrak has an estimated $5 billion backlog of state-of-good-repair
  investments, and underinvestment is becoming increasingly visible in its
  effects on service quality and reliability. Deferred capital investment has led to
  several system failures in recent years, including a failure of a key 12-kilovolt
  electric cable during the August 2003 northeast power blackout; fallen
  overhead power lines (catenary) on the line between New York and New
  Rochelle; and broken bolts on the Thames River bridge in Connecticut. No
  one knows where or when a critical failure will occur, but continued deferral of
  needed investment increases the risk that it may not be too far away.

• Further, on-time performance
                                                                    Amtrak Systemwide On-Time Performance
  fell from 74 percent in FY 2003                                          FY 1997 through FY 2004
  to 71 percent in FY 2004, with
                                                              80%              79%
  even Amtrak’s premier service –                                                     79%
                                                                                            78%
                                                              78%                                             77%
  Acela Express – achieving on-
                                                              76%
  time performance of only 74                                           74%
                                                                                                     75%
                                                                                                                         74%
                                               Percent




                                                              74%
  percent. On-time performance
                                                              72%                                                                71%
  for long-distance trains averaged
                                                              70%
  less than 50 percent. Last year,
                                                              68%
  the poorest performing train, in
                                                              66%
  this regard, was the Sunset                                          1997   1998   1999   2000    2001     2002      2003     2004


  Limited, with an on-time
  performance of only 4 percent.

   Today, Amtrak’s corridor trains outside the Northeast Corridor, based on
   current schedules, average 48 miles per hour and long-distance trains average
   only 46 miles per hour. These speeds reflect scheduled time and overstate the
   lower actual speeds due to delays. Deteriorating infrastructure and increasing
   freight and commuter rail congestion will continue to impact on-time
   performance.
Bankruptcy Is No Substitute for Reauthorization
A rail bankruptcy is an extraordinarily complex and risky procedure, and we
cannot predict how the passenger rail system would emerge from bankruptcy. An
Amtrak bankruptcy is no substitute for reauthorization. In our opinion, this is not
an option to be relied upon if the objective is to promote a more rational and
reliable national passenger rail system.

   • Labor Costs. Labor negotiations are outside the bankruptcy process. In a
     non-railroad bankruptcy, the bankruptcy court can cancel or change
     collective bargaining agreements, which some airlines successfully used as
     leverage when renegotiating with their unions. In a rail bankruptcy, the
     Trustee would have to negotiate with Amtrak’s unions under the Railway
     Labor Act.

   • Cash Crunch and Infrastructure Needs. Amtrak’s cash crunch would be
     exacerbated in bankruptcy. Once in bankruptcy, vendors often demand
     cash or provide credit under stringent terms. As a result, absent a Federal
     cash infusion, there is a possibility that major assets such as Penn Station
     and the Northeast Corridor would need to be sold or remortgaged to raise
     cash to sustain operations.        Meanwhile, the value of the Federal
     Government’s mortgages on these properties would be diluted, and the
     infrastructure would continue to deteriorate.

   • Public Interest. Once in bankruptcy, a federally appointed Trustee would
     direct and manage Amtrak. The Trustee must consider the “public
     interest,” which has generally been broadly interpreted as continued
     operations of the railroad, but in what fashion would clearly be left up to
     the Trustee, which might not be the best solution or a solution that the
     reauthorizers would prefer or what the states would prefer. For example, in
     order to continue operations, the Trustee may need to shut down various
     state corridors or long-distance service to stop the bleeding of cash and
     operating losses.

Eliminating Long-Distance Service Will Not Solve the
Funding Problem

Long-distance service has sparked widespread controversy, in part, because of its
heavy subsidies. In 2004, long-distance trains cumulatively incurred operating
losses of more than $600 million (excluding interest and depreciation). In fact, the
loss per passenger exceeded $400 on two of these trains—Sunset Limited and
Southwest Chief. Eliminating long-distance service reduces operating losses
associated with long-distance trains by about half (or $300 million) but will not
make Amtrak profitable.

Because long-distance trains share stations and facilities with corridor trains,
eliminating the long-distance trains would not eliminate the shared costs. In
addition, Amtrak allocates a share of overhead and infrastructure maintenance to
the long-distance trains—some of these costs will be reallocated to all remaining
trains. For example, we estimate that $300 million or more in shared and system
costs would be shifted to other corridor trains. Thus, the expected net savings are
only about $300 million. However, these savings would not be immediate. In
fact, in the first year, it may cost Amtrak more to eliminate the service than to
operate it because of its labor severance payouts (commonly called C-2).

Long-distance trains represent about 15 percent of total intercity rail ridership.
However, many long-distance riders do not really travel long distances. That is,
long-distance trains carry only a small number of end-to-end riders. Of the
3.9 million long-distance riders in FY 2004, only 527,000 rode the entire length of
the route and another 403,000 rode between city pairs also served by existing
corridor service. The remaining 3 million riders traveled along portions of the
route. These trips mostly ranged from 500 miles to 700 miles—slightly longer trip
lengths than corridor riders.

While eliminating long-distance service may seem appealing from a Federal
budgetary standpoint, especially with the large deficits, it ignores the mobility
needs of rural areas of the country and the benefits passenger rail provides.
Amtrak provides long-distance service in 41 states and is the only intercity
passenger rail service in 23 of those states. The questions of whether to provide
long-distance service, who makes those decisions, and who funds the losses are
critical policy decisions that will need to be made.

Where Do We Go From Here? Reauthorization Guidance
Is Essential
The “limp along” approach is costly and leaves many unsatisfied. The current
model for providing intercity passenger service does not leave the states in a
position to decide upon the best mix of service for their needs—what cities are
served, schedules and frequency of service, and service amenities. The model
provides little balance between the national goals of an integrated network and
regional and state transportation needs. How much funding and who provides the
funding—Federal, state, or a combination—are also critical questions that need to
be addressed. In providing reauthorization guidance, some core elements need to
be considered in determining how passenger rail is funded and delivered,
specifically, deciding the levels and mix of Federal and state funding, achieving a
state-of-good repair in the Northeast Corridor, determining the appropriate
framework to integrate competing demands of infrastructure and operations in the
Northeast Corridor, and paying off Amtrak’s legacy debt.

In our opinion, a new model for intercity passenger rail should also include several
important aspects. The first is that funding and governance build in incentives for
cost cutting. Specifically, eliminating direct subsidies to Amtrak, or any other
operator, and channeling funds through the states will likely promote more cost
control because an operator will need to better justify costs in order to retain an
operating contract. In addition, it will encourage states to maximize efficiency by
keeping their own costs to a minimum. Second, the introduction of private
competition into the management and operation of intercity passenger rail services
will exert additional market pressures on operators to provide cost-effective,
higher quality service.

Adequate Federal and State Funding Should Be Provided in Order To
Restore the Intercity Passenger Rail System and Invest Meaningfully
in Corridor Development

Federal funding levels, along with state contributions, have not been sufficient to
subsidize operations, address deferred capital needs, and significantly improve
service along the existing rail network. In the last 2 years, Amtrak has received
annual Federal funding of $1.2 billion. This amount was supplemented by
operating and capital contributions from state and local sources—in FY 2004 these
were $135 million and $114 million, respectively. In effect, Amtrak received
about $1.45 billion in public funds.

It will require at least $2 billion in funding from all sources to begin any
meaningful corridor development. The policy challenge is determining who pays
for what portions of the system. Federal funding of $1.4 billion to $1.5 billion
would not provide sufficient funding to maintain a 5-year program for restoring
the system to a state-of-good-repair. Projects in both the Northeast Corridor and
in the corridors and long-distance routes outside the Northeast Corridor would
continue to be deferred. This simply maintains the limp-along status quo.

One approach to promote adequate Federal and state funding could be to use a
variety of grant programs similar to those used in aviation, transit, and highways
that place funds in the hands of states. These programs are based on a
combination of Federal/state matches and formula grants. More specifically,

   ! Capital Grants With a Reasonable Match. Like the Administration’s
      proposal, this approach would provide capital grants on a competitively
  determined basis and would be administered by the Department of
  Transportation (DOT). States that desire to improve existing intercity rail
  service and/or develop new corridor services would apply to DOT for a
  matching grant, similar to the Federal Transit Administration’s New Starts
  Capital Program. The Administration’s proposal also suggests such a
  program but provides a 50/50 capital match rate by the end of the
  reauthorization period. Our view is that a lower state match rate
  requirement would provide incentives for states to take an “ownership” role
  in developing rail corridors on a more competitive basis with other
  transportation modes (historically, highways and transit have used an 80/20
  match rate).

  To accommodate the need for different types of capital investments, two
  types of capital matches could be established. For investments that qualify
  as traditional capital investment, such as track or purchases of passenger
  equipment, the Federal share could go up to 80 to 85 percent. On the other
  hand, for investments that qualify as capital maintenance (for example,
  those under the transit definition) the Federal share might be 70 to
  75 percent.

! Formula Grants With No Match Required. This approach provides
  funds to states outside the Northeast Corridor that do not have corridor
  development potential and that rely on long-distance trains for substantially
  all intercity passenger rail service. By discussing this approach, we are not
  taking a position on the ultimate policy of whether long-distance service
  should be retained or eliminated but merely presenting it as an approach for
  funding states that do not have the population densities to support corridor
  development. There are at least 16 states with only long distance service
  and little potential for any corridor development. These states are unable to
  take advantage of the matching capital grants for corridor development.

  This approach could initially include sufficient funds to subsidize existing
  long-distance and corridor services. Over the reauthorization period the
  funds associated with corridor services would be reduced and then
  eliminated at the end of the period. Further, we expect the level of Federal
  funds subsidizing the long-distance services would be reduced to reflect
  greater operating efficiencies resulting from capital investments as well as
  other savings resulting from food and beverage service changes, improved
  labor productivity, and efficiencies that may be introduced by competitive
  service providers.

  As determined by the states, funds could be used to defray the cost of
  operating subsidies, capital investment, or both, with no match required.
      The amount of the formula grant could be calculated on the basis of
      Amtrak’s FY 2005 operating loss allocable per embarking/disembarking
      passengers in the affected state or some other formula that provides an
      equitable allocation.

   ! Restore Northeast Corridor to a State-of-Good-Repair. The Northeast
      Corridor presents a difficult challenge. The funding priority for the
      Northeast Corridor reflects the accumulated deferral of investments which
      has resulted in an estimated $5 billion backlog of capital projects,
      threatening current and future service reliability. The effects of the
      deteriorating infrastructure are readily evident. For example, Amtrak’s
      reported on-time performance in the Northeast Corridor as a whole between
      1994 and 2002 ranged from 82 to 89 percent. In FY 2003, it dropped to
      about 80 percent. For FY 2004, even Amtrak’s premiere Acela service
      posted an on-time performance of only 74 percent, far short of Amtrak’s
      stated goal of 94 percent. If the decision were made to keep the current
      Northeast Corridor intact, we estimate Amtrak would need to spend about
      $550 million annually for an extended period on infrastructure and rolling
      stock to eliminate the backlog of capital investment in the Northeast
      Corridor.

      Bringing the eight Northeast Corridor states and the District of Columbia
      together in a short period of time to direct and manage this effort is
      incredibly complex but may be achievable by the end of the reauthorization
      period. Recognizing this challenge, one option during the reauthorization
      period could be for the Federal Government to fully fund the Northeast
      Corridor’s capital requirements until a state-of-good-repair is achieved.
      This would also address the states’ reluctance to inherit a legacy system
      they did not create. We suggest that DOT distribute funds directly to the
      Northeast Corridor infrastructure manager separately from the competitive
      grant process.

Construct for 5-Year Reauthorization Funding. Congress and the
Administration have a difficult decision to make in determining the appropriate
level of funding for intercity passenger rail. The level of funding can obviously
vary. We have been giving this some thought and would like to present a
construct for consideration. We recognize that many assumptions need to be made
about who pays for what and how to balance national, regional, and state
transportation needs. Those are decisions for Congress and the Administration to
make.

In building this construct, we made several assumptions for purposes of
illustration as follows.
       – Formula grants will not fully cover train operating losses. Amtrak’s
           forecast net cash operating needs (excluding interest) were used as the
           starting point. The levels of funding represent imputed cost savings of
           10 percent per year from a combination of revenue growth and
           operating cost savings.

       – Over the 5-year reauthorization period, Federal subsidies decline for
           long-distance trains and corridor operating subsidies shift to the states.
           We expect states to place higher performance and efficiency demands
           on the service provider to lower operating costs to more affordable
           levels.

       – Debt service is based on Amtrak’s projected debt service payments
           through FY 2009, adjusted for installment payments on their RRIF loan
           and possible early buyout options on leased equipment.

       – Capital requirements to restore the system to a state-of-good-repair are
           based on Amtrak’s Strategic Plan for FY 2005 through FY 2009 and on
           assumptions we made on allocating capital needs between the Northeast
           Corridor and the rest of the system. The funding allocation assumes a
           capital need of $550 million for infrastructure and fleet in the Northeast
           Corridor and $250 million for infrastructure and fleet outside the
           Northeast Corridor.

       – Funds available for capital match represent funds remaining after state-
           of-good-repair funding requirements, formula grants, and debt service
           are met.

                        Construct for Reauthorization Funding
                                    ($ in Millions)
                                                  FY       FY       FY       FY       FY       FY
Federal Contributions
                                                 2005     2006     2007     2008     2009     2010
Formula Grants (Capital and/or Operating
Subsidy)                                         $570     $570     $510     $460     $410     $370
Debt Service                                      276      278      358      306      308     375
Capital to Restore System State of Good Repair    355      655      755      800      800      800
NEC Infrastructure + Fleet*                        300      525      550      550      550      550
Non-NEC Infrastructure + Fleet                      55      130      205      250      250      250
Subtotal                                         $1,201   $1,503   $1,623   $1,566   $1,518   $1,545
Available Capital for Match                                         27       234      432      455
Total Federal Contributions                      $1,201   $1,503   $1,650   $1,800   $1,950   $2,000
*NEC: Northeast Corridor
New Federal capital available for state match does not become available until
annual Federal funding levels reach $1.65 billion. This construct highlights the
policy choice that needs to be made between restoring the system to a state-of-
good-repair and investment in new corridor development. At $2 billion, we would
expect about $455 million to be available to states to match for use in new and/or
improved corridor development.

Too Premature to Separate Management of Northeast Corridor
Infrastructure From Operations

Proposals to separate the Northeast Corridor infrastructure management and
operations into two independent companies present a level of complexity and risk
that needs a more thorough examination. At some point down the road, this split
might be feasible and may prove a better way of controlling costs. However, at
this juncture, not enough is known about the benefits and risks of this proposal.
As we witnessed in Great Britain’s experience, there are risks associated with
establishing a commercial, for-profit entity to operate the infrastructure. Allowing
an infrastructure company to operate “like a business” may mean relinquishing
control over how certain expenses are cut or which capital investments are made.
An infrastructure company focused on its bottom line has incentives to make
decisions that are in its financial best interest but may not be in the best interest
from a safety or efficiency perspective for the operator. The result could be, at
best, disruption to service and a decline in on-time performance and, at worst,
compromised safety conditions.

Aside from the risks of separating the infrastructure from operations in the
Northeast Corridor, there are benefits to the integration. In particular, an
integrated Northeast Corridor provider of track maintenance, capital programs,
operations, and dispatching is likely to be more efficient and less costly than two
providers, each having a separate organizational support structure. In addition, a
bifurcated approach would require a fully functional oversight and control
organization at the outset lodged in the Northeast Corridor compact or the DOT to
coordinate between operations and infrastructure. If formation of the Northeast
Corridor compact is delayed, there could be disruptions to the operation of the
corridor.

It may be possible at some point down the road to develop a model where all
interests are best served, but a more thorough review and understanding of lessons
learned from other similar attempts would be a valuable precursor to such a
division in the Northeast Corridor.
Pay Off Legacy Debt and Restrict Future Borrowings

As of September 30, 2004, Amtrak had long-term debt and lease obligations of
about $3.8 billion with amortization periods extending beyond 20 years. Amtrak’s
balance sheet shows $845 million in escrowed proceeds to defease a portion of
this debt, leaving close to $3 billion in unfunded long-term debt or lease
obligations. Under the current model, these obligations are paid for with Federal
appropriations. Because portions of Amtrak’s debt were financed at higher
interest rates than what the Federal Government can borrow, Congress and the
Administration should consider a one-time appropriation for the specific purpose
of discharging any debt that can benefit from the Federal Government’s borrowing
power, producing long-term Federal savings. For example, Amtrak pays
9.5 percent interest on its mortgage obligation for Penn Station, New York,
whereas recent 10-year Treasury notes issued by the Federal Government are
yielding a little over 4 percent. In addition, Amtrak’s ability to incur long-term
debt should be restricted, except for refinancing opportunities that lower interest
expense and do not increase the outstanding principal, and no commitments should
be made without advance approval by the Secretary of Transportation. In return
for discharging Amtrak’s debt, title to Amtrak’s assets would transfer to the U.S.
Government.

Mr. Chairman, that concludes my statement. I would be happy to answer any
questions at this time.
The following pages contain textual versions of the graphs and charts found in the
preceding document. These pages were not in the original document but have
been added here to accommodate screenreaders and other assistive technology.
                                     Construct for Reauthorization Funding
                                               ($ in Millions)
Federal Contributions                            FY 2005       FY 2006    FY 2007       FY 2008       FY 2009       FY 2010
Formula Grants (Capital and/or Operating
Subsidy)                                          $570          $570       $510          $460          $410          $370
Debt Service                                       276           278        358           306           308           375
Capital to Restore System State of Good Repair     355           655        755           800           800           800
NEC Infrastructure + Fleet*                              300       525            550           550           550           550
Non-NEC Infrastructure + Fleet                         55           130        205           250           250           250
Subtotal                                           $1,201        $1,503     $1,623        $1,566        $1,518        $1,545
Available Capital for Match                                                 27            234           432           455
Total Federal Contributions                        $1,201        $1,503     $1,650        $1,800        $1,950        $2,000
*NEC: Northeast Corridor
                 1997      1998     1999     2000        2001      2002    2003        2004
Systemwide O     74%       79%      79%      78%         75%       77%     74%         71%



                        Systemwide On-Time Performance
               2004                         71%
               2003                                         74%
               2002                                                       77%
               2001                                               75%
               2000                                                             78%
               1999                                                                   79%
               1998                                                                   79%
               1997                                         74%

                  66%        68%     70%      72%        74%       76%     78%         80%
       Figure 6. Amtrak's Short-Term and Long-Term Debt 1997-2004
                                 1997       1998      1999       2000           2001      2002       2003
       Long-Term Debt      $    1,216 $    1,536 $   1,792 $    2,798 $        3,632 $   3,852 $    3,773
       Short-Term Debt     $      521 $      621 $     657 $      779 $          996 $     974 $    1,044
       Total               $    1,737 $    2,157 $   2,449 $    3,577 $        4,628 $   4,826 $    4,817



              Amtrak's Short and Long Term Debt (millions)
2004                                                                                       $4,637

2003                                                                                       $4,817
                                                                                           $4,826
2002
2001                                                                                       $4,628

2000                                                                  $3,577

1999                                                    $2,449

1998                                           $2,157

1997                                      $1,737


       $-            $1,000           $2,000                 $3,000      $4,000          $5,000

                         Long-Term Debt     Short-Term Debt
Systemwide Ridership Trends, 1994 Through 2004 (in millions)
                 1994       1995       1996       1997       1998                      1999            2000             2001         2002     2003     2004
Ridership         21.2       20.7       19.7       20.2       21.1                      21.5            22.5             23.5         23.4     24.0     25.1


                          Systemwide Ridership
                 2004                                                                                            25.1
                 2003                                                                             24.0
                 2002                                                                     23.4
                 2001                                                                      23.5
                 2000                                                          22.5
                 1999                                           21.5
                 1998                                       21.1
                 1997                             20.2
                 1996                      19.7
                 1995                                    20.7
                 1994                                           21.2

                      18.0       19.0      20.0          21.0          22.0      23.0          24.0        25.0          26.0


Systemwide Passenger Revenue Trends, 1994 Through 2004 (in millions)
                 1994     1995       1996      1997        1998                        1999            2000          2001            2002     2003     2004
Revenue          880       874        901       964      1,001                        1,058           1,166         1,260           1,340    1,266    1,301


                             Passenger Revenue (millions)
                   2004                                                                              $1,301
                   2003                                                                            $1,266
                   2002                                                                                $1,340
                   2001                                                                            $1,260
                   2000                                                                       $1,166
                   1999                                                                  $1,058
                   1998                                                               $1,001
                   1997                                                             $964
                   1996                                                         $901
                   1995                                                        $874
                   1994                                                        $880

                          $0       $200     $400          $600          $800     $1,000        $1,200          $1,400      $1,600
Figure 1a. Operating and Cash Losses, 1994 through 2004 - $ in millions

                     1997       1998     1999       2000           2001        2002      2003        2004    pre - audited figures
Operating Loss         797        860      916        944           1,271       1,149     1,293       1,338
Cash Loss               549        561      579        561             770         631       644         635



                                     Operating Loss                 Cash Loss


                    2004                                     635
                                                                                                      1,338
                    2003                                     644
                                                                                                    1,293
                    2002                                    631
                                                                                          1,149
                    2001                                             770
                                                                                                   1,271
                    2000                               561
                                                                                   944
                    1999                                579
                                                                               916
                    1998                               561
                                                                             860
                    1997                              549
                                                                       797

                           $0     $200      $400      $600          $800       $1,000    $1,200     $1,400    $1,600
